TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Combat Zone Indicators on Taxpayer
                       Accounts Are Frequently Inaccurate



                                      September 23, 2009

                              Reference Number: 2009-40-138




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 23, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Combat Zone Indicators on Taxpayer Accounts
                             Are Frequently Inaccurate (Audit # 200940015)

 This report presents the results of our review of the Internal Revenue Service (IRS) processing of
 Combat Zone indicators. The overall objective of this review was to assess the IRS actions to
 ensure the accuracy of Combat Zone indicators. This audit was conducted as part of the
 Treasury Inspector General for Tax Administration Fiscal Year 2009 Annual Audit Plan related
 to the major management challenge of Taxpayer Protection and Rights.

 Impact on the Taxpayer
 In recognition of the dangers that members of the military face and the sacrifices they make on
 behalf of the United States, special Federal income tax benefits are extended to members of the
 military. These benefits include the exclusion of combat pay from taxation and extension of time
 to file tax returns and pay taxes. While civilian employees supporting the military in combat
 zones are not entitled to the Combat Zone military pay exclusion, they are entitled to other
 benefits, such as extensions of time to file and pay. To identify these taxpayers, the IRS places
 Combat Zone indicators on their tax accounts. However, we found that Combat Zone indicators
 are often inaccurate, which can result in taxpayers not receiving the benefits to which they are
 entitled or continuing to receive special tax benefits to which they are no longer entitled.

 Synopsis
 The Treasury Inspector General for Tax Administration has previously identified problems with
 the accuracy of Combat Zone indicators. Despite the IRS implementing a number of actions to
 help ensure the accuracy of Combat Zone indicators, there are still significant problems with
 inaccurate indicators. Our review identified that Combat Zone indicators are inaccurate because
                              Combat Zone Indicators on Taxpayer Accounts
                                       Are Frequently Inaccurate



the IRS is incorrectly updating Combat Zone indicators to active status when a military member
self-identifies on their tax return that they served in a combat zone. Our analysis showed
339,027 taxpayers had an active Combat Zone
indicator in Tax Year 2007 but were no longer in a                  We estimate at least
combat zone. The IRS initially reversed the Combat            339,000 Combat Zone indicators
Zone indicator for the 339,027 taxpayers based on the               could be inaccurate.
exit date received from the Department of Defense
(DOD) indicating that these individuals were no longer
in a combat zone. However, the 339,027 taxpayers subsequently filed tax returns1 and annotated
“Combat Zone” on the tax returns. The IRS reactivates the Combat Zone indicator to active
status when a taxpayer annotates “Combat Zone” on the tax return even though the taxpayer is
no longer in a combat zone.
In addition, Combat Zone indicators used by the IRS do not distinguish between military and
civilian taxpayers. As a result, civilians can receive Combat Zone tax relief benefits to which
they are not entitled. The IRS also cannot identify for married individuals filing a joint tax return
which individual(s) is/are in the military. This again results in the IRS not ensuring the accuracy
of tax benefits being provided.
Further, unpostable conditions are not accurately resolved when there is a problem posting the
entry/exit dates provided by the DOD. Our review of 5 months of DOD Combat Zone
transactions for Tax Year 2007 identified 1,720 (1 percent) of 185,685 military members’ Social
Security Numbers did not match an IRS tax account; therefore, no indicator could be activated.
Although the IRS has the ability to identify these unpostable records, it has not established a
process to resolve them. As a result, Combat Zone indicators are not being placed on an
individual’s account when they enter a combat zone and/or are not being reversed when they exit
a combat zone.
Finally, actions are not taken at the time an individual self-identifies to validate Combat Zone
service. A taxpayer can identify that he or she is in a combat zone by annotating their tax return
or calling or emailing the IRS. The IRS requires no documentary evidence to support an
individual’s self-identification that they are serving in a combat zone.
The IRS established a Combat Zone Task Force in November 2008 to evaluate processing
concerns relating to combat pay exclusions. The Task Force is comprised of various divisions
within the IRS to address issues with Combat Zone processing. The goal of the Task Force is to
analyze the current process for handling Combat Zone taxpayers and identify areas for
improvement.



1
 These may include individuals who leave the military and then become employed as a contractor working in a
combat zone. However, the IRS does not have the data to make this determination.
                                                                                                              2
                           Combat Zone Indicators on Taxpayer Accounts
                                    Are Frequently Inaccurate



Since establishing the Combat Zone Task Force, a number of actions have been initiated in an
attempt to improve the program. For example, IRS management indicated that Filing
Season 2009 guidelines were revised to include a process to identify individuals who are
incorrectly excluding Combat Zone pay. In addition, the IRS is coordinating with the DOD to
obtain a list of contractors serving in a combat zone and is exploring options to prevent returns
that have “Combat Zone” annotated on them from posting to the taxpayer’s account when the
account shows current DOD activity.

Recommendations
We recommended that the Commissioner, Wage and Investment Division, develop processes to
distinguish military taxpayers from civilian taxpayers, properly identify individuals who are in
the military that file a joint tax return, and ensure indicators are properly reversed. The IRS
should also discontinue providing the option to self-identify by annotating a tax return. Further,
the IRS should review the accounts of individuals not filing a tax return as the result of an
inaccurate indicator, identify and resolve unpostable records from the DOD, validate Combat
Zone service at the time an individual self-identifies, and develop a secure fillable form with the
required data fields to improve electronic self-identification.

Response
The Commissioner, Wage and Investment Division, agreed with or agreed to take action on 9 of
10 recommendations. These actions include working with the IRS Modernization and
Information Technology Services organization to improve the existing process that identifies
which individual(s) is/are in a combat zone, particularly if a taxpayer files jointly with their
spouse. The IRS is also working with the Modernization and Information Technology Services
organization to ensure the accurate reversal of Combat Zone indicators when an exit date is
received from the DOD for those individuals who file a joint tax return but do not maintain the
same order of primary and secondary taxpayer. While the IRS is considering several alternatives
to the existing self-identification process, self-identification on tax returns will be discontinued
only after the IRS is certain other means of identification are adequate. The IRS will consider
the option of establishment of a secure fillable form for self-identification by email. Other
actions by the IRS include developing solutions to address incorrect reactivation of Combat Zone
indicators, reviewing 475 nonfiler accounts through its transcript process, developing a process
to capture dropped records, and establishing resolution procedures when records do not post.
The IRS will also take corrective actions to resolve the 458 Combat Zone transactions that
posted to invalid Social Security Numbers.
The Commissioner, Wage and Investment Division, disagreed with our recommendation to
develop a process to distinguish military taxpayers from civilian taxpayers. The IRS believes
that it already has a means for distinguishing between military and civilian taxpayers and the
                                                                                                      3
                          Combat Zone Indicators on Taxpayer Accounts
                                   Are Frequently Inaccurate



creation of an additional process to distinguish military taxpayers from civilian taxpayers would
not assist it in determining the benefits to which the taxpayer may be entitled. The IRS
implemented new procedures in Fiscal Year 2009 for processing returns to ensure only taxpayers
entitled to Combat Zone income exclusions receive that benefit. Management’s complete
response to the draft report is included as Appendix V.

Office of Audit Comment
IRS management indicated that they have the ability to distinguish between military and civilian
taxpayers. We acknowledge that the IRS can identify military individuals via the information
received monthly from the DOD. However, as our report details, the IRS uses the same indicator
for both military and civilian taxpayers. Once this indicator is set on the accounts of civilian
taxpayers, it could allow the civilian taxpayers to inappropriately exclude income without action
by the IRS because the IRS will not review accounts with unreported income if a Combat Zone
indicator is present. We cannot comment at this time on management’s assertion that new
procedures were implemented to ensure accuracy of income reporting by individuals in a combat
zone because these procedures were implemented subsequent to our review.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                                4
                                     Combat Zone Indicators on Taxpayer Accounts
                                              Are Frequently Inaccurate




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Combat Zone Indicator Used by the Internal Revenue Service Does
          Not Distinguish Between Military and Civilian Taxpayers..........................Page 5
                    Recommendation 1:........................................................Page 6

          Combat Zone Indicators Are Not Always Accurate for Married Military
          Couples .........................................................................................................Page 7
                    Recommendation 2:........................................................Page 8

                    Recommendation 3:........................................................Page 9

          Combat Zone Indicators for Taxpayers Serving in the Military Are
          Inaccurate......................................................................................................Page 9
                    Recommendation 4:........................................................Page 12

                    Recommendations 5 and 6: ....................................................... Page 13

          Unpostable Conditions for Entry/Exit Dates Provided by the Department
          of Defense Are Not Accurately Resolved.....................................................Page 13
                    Recommendation 7:........................................................Page 14

                    Recommendation 8:........................................................Page 15

          The Accuracy of Information Is Not Verified From Individuals Who
          Self-Identify That They Are Serving in a Combat Zone ..............................Page 15
                    Recommendation 9:........................................................Page 16

                    Recommendation 10: ......................................................Page 17


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 22
                       Combat Zone Indicators on Taxpayer Accounts
                                Are Frequently Inaccurate



Appendix III – Report Distribution List .......................................................Page 23
Appendix IV – Outcome Measures...............................................................Page 24
Appendix V – Management’s Response to the Draft Report .......................Page 28
         Combat Zone Indicators on Taxpayer Accounts
                  Are Frequently Inaccurate




                Abbreviations

DOD       Department of Defense
FY        Fiscal Year
IMF       Individual Master File
I.R.C.    Internal Revenue Code
IRS       Internal Revenue Service
MITS      Modernization and Information Technology Services
SSN       Social Security Number
TIGTA     Treasury Inspector General for Tax Administration
U.S.      United States
W&I       Wage and Investment
                                Combat Zone Indicators on Taxpayer Accounts
                                         Are Frequently Inaccurate




                                             Background

In recognition of the dangers that members of the military face and the sacrifices they make on
behalf of the United States (U.S.), special Federal income tax benefits have been extended to
members of the military since the inception of
modern taxation. Section (§) 112 of the Internal           In recognition of the dangers that
Revenue Code (I.R.C.)1 excludes from gross               members of the military face and the
income compensation paid to noncommissioned              sacrifices they make on behalf of the
U.S. Armed Forces personnel serving in a combat         United  States, special Federal income
                                                          tax benefits have been extended to
zone and excludes a portion of the compensation            members of the military since the
paid to commissioned officers of the U.S. Armed              inception of modern taxation.
Forces.
Civilian contractors and other civilian employees
working in a combat zone are not eligible for the Combat Zone tax exclusion provided by
I.R.C. § 112. While civilian employees’ pay is taxable, I.R.C. § 75082 postpones certain
tax-related acts for individuals serving in the U.S. Armed Forces or serving in support of the
Armed Forces in a combat zone. These benefits are generally extended for the period of time the
individual is in a combat zone and are further extended for other reasons including periods of
hospitalization due to injury or illness received while in a combat zone.
Military tax benefits for those serving in a combat zone include exclusion of Combat Zone
wages from taxation and postponement of filing tax returns, paying taxes, filing claims for
refunds, enforcement activities,3 and other actions. Civilians who support the U.S. Armed
Forces, such as Red Cross employees, industrial technicians, accredited correspondents, and
Federal Government specialists can qualify for some Combat Zone tax benefits. This would
include extensions of time to file tax returns, pay taxes, and claim refunds; suspension of
enforcement activities; and suppression of notices. The main difference between military and
civilian benefits is that civilians are not entitled to the Combat Zone military pay exclusion.4
Once the Internal Revenue Service (IRS) receives notification that an individual is in a combat
zone, a Combat Zone indicator5 is placed on the taxpayer’s account extending the due dates for
filing tax returns and paying taxes, etc. The indicator stays active on the taxpayer’s account until

1
  I.R.C. § 112 (2008).
2
  I.R.C. § 7508 (2008).
3
  Enforcement activities include examinations and actions to collect outstanding taxes.
4
  Civilians are not entitled to the Combat Zone military pay income tax exclusion, but still may be able to exclude
income under the Foreign Earned Income Exclusion if they meet the requirements.
5
  An indicator is placed on the taxpayer’s account to alert IRS employees the taxpayer is or has been in a combat
zone.
                                                                                                             Page 1
                              Combat Zone Indicators on Taxpayer Accounts
                                       Are Frequently Inaccurate



the IRS receives notification the taxpayer is no longer in a combat zone, at which time the
indicator is deactivated and normal processing of the account resumes.

The IRS is alerted of a taxpayer’s Combat Zone status by notification from the
Department of Defense and/or self-identification
The IRS is notified of individuals serving in a combat zone from:
    •   Department of Defense (DOD) – The DOD sends monthly electronic extracts to notify
        the IRS when a military taxpayer enters or leaves a combat zone and which combat zone
        the taxpayer is serving. Specific entry and exit dates are provided by the DOD. Based on
        the DOD information, the IRS updates an individual’s tax account by adding or reversing
        the Combat Zone indicator.
    •   Self-identification – There are three ways a taxpayer may self-identify:
        o Taxpayers can write “Combat Zone” on their paper tax return or enter “Combat
          Zone” in a special field on the electronically filed tax return. On receipt of such a tax
          return, the IRS inputs a transaction to the taxpayer’s account to update the Combat
          Zone indicator so that the individual receives Combat Zone tax relief benefits.
        o Taxpayers can call the IRS toll-free telephone number used specifically for disaster
          and Combat Zone calls. During Fiscal Years (FY) 2006 and 2007, the IRS received
          more than 210,000 calls on this special toll-free telephone number. The toll-free
          telephone line also provides taxpayers with answers to Combat Zone tax questions
          and account-related inquiries.
        o Taxpayers can send notification using a unique email address of
          combatzone@irs.gov. As with calls to the toll-free telephone line, an IRS employee
          inputs the Combat Zone indicator to the taxpayer’s account and also adds the
          entry/exit dates. Also similar to the service provided by the toll-free telephone line,
          taxpayers can receive answers to Combat Zone general tax questions.

A prior review identified control weaknesses resulting in inaccurate Combat Zone
indicators
A prior Treasury Inspector General for Tax Administration (TIGTA) review6 found that more
than 58 percent of the 520,000 taxpayer accounts with active Combat Zone indicators were
incorrect (i.e., the taxpayers were no longer serving in a combat zone). Errors created when
updating the DOD information on taxpayers’ accounts were not resolved. These errors occurred
for various reasons, such as missing information or mismatches between Social Security


6
 Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits, but Account Identification
and Maintenance Processes Need Improvement (Reference Number 2005-40-077, dated April 28, 2005).
                                                                                                        Page 2
                              Combat Zone Indicators on Taxpayer Accounts
                                       Are Frequently Inaccurate



Numbers (SSN) and names. In addition, the IRS ceased running the annual Combat Zone
verification program to periodically review the accounts with Combat Zone indicators to ensure
accuracy.
In response to our prior review, the IRS indicated that it had corrected the programming for
downloading entry and exit dates received from the DOD. The program now checks a taxpayer
account for a corresponding entry date and posts the exit date to that module (a module is for a
specific tax year) and includes a verification check of entity data prior to the download. The IRS
also initiated a one-time cleanup by systemically identifying and reversing the indicator on
203,485 accounts with an entry date more than 3 years old and no exit date.
The IRS continues to recognize the need to improve its Combat Zone program. In
November 2008, the IRS established a Combat Zone Task Force. The Task Force is comprised
of various divisions within the IRS to address issues with Combat Zone processing. The goal of
the Task Force is to analyze the current process for handling Combat Zone taxpayers and
identify areas for improvement. For example, IRS management indicated that Filing
Season 2009 guidelines were revised to include a process to identify individuals who are
incorrectly excluding Combat Zone pay. In addition, the IRS has approved other initiatives that
are still in process, such as working with the DOD to obtain a Combat Zone file for contractors
serving in a combat zone. Further, the IRS is considering other proposals to improve the Combat
Zone program. For instance, the IRS is exploring options to prevent returns that have “Combat
Zone” annotated on them from posting to the taxpayer’s account when the account shows current
DOD activity.
This review was performed at the offices of the IRS Wage and Investment (W&I) Division
Compliance function in Atlanta, Georgia, and Accounts Management worksites in
Andover, Massachusetts, and Ogden, Utah, during the period January through July 2009. Our
review included a discussion with the DOD Defense Manpower Data Center.7 We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




7
 The Defense Manpower Data Center collects, archives, and maintains accurate, readily available manpower and
personnel data, as well as financial databases for the DOD.
                                                                                                       Page 3
                              Combat Zone Indicators on Taxpayer Accounts
                                       Are Frequently Inaccurate




                                     Results of Review

Our review identified that the IRS cannot differentiate between military and civilian taxpayers in
combat zones because they use the same Combat Zone indicator in both cases. As a result,
civilians can receive Combat Zone tax relief benefits to which
they are not entitled (i.e., exclusion of income). Also, Combat        We estimate at least
Zone indicators continue to be inaccurate. For example, of            339,000 Combat Zone
the approximately 845,000 taxpayers with an active Combat              indicators could be
                                                   8
Zone indicator on their tax account for Tax Year 2007, we                  inaccurate.
estimate approximately 339,000 (40 percent) of the taxpayers’
Combat Zone indicators could be inaccurate. In addition, the IRS does not verify the accuracy of
individuals self-identifying that they are in a combat zone. The inaccuracy of the indicators
continues despite the IRS’ actions to ensure the accuracy of Combat Zone indicators. These
actions included:
    •   Initiating a one-time cleanup of accounts with a Combat Zone entry date more than
        3 years old and no exit date. The IRS identified accounts with a Combat Zone entry date
        more than 3 years old and no exit date. The IRS had not worked transcripts for 3 years
        and a one-time cleanup in May 2005 was performed to turn off the Combat Zone
        indicators of accounts with an entry date more than 3 years old and no exit date. The IRS
        identified and reversed the Combat Zone indicators on 203,485 of the 520,000 taxpayer
        accounts with an active indicator at that time.
    •   Restarting the process of generating Combat Zone transcripts.9 In May 2005, the IRS
        elected to restart the process of generating annual Combat Zone transcripts so that
        taxpayers’ accounts with Combat Zone indicators would be reviewed and corrected as
        needed. The IRS mails letters to taxpayers requesting their Combat Zone service dates to
        determine whether the taxpayers qualify for Combat Zone tax benefits and, if not,
        deactivates their Combat Zone indicators so that IRS collection/compliance activities are
        no longer restricted.
The IRS has also proposed actions to take place at the end of FYs 2009 and 2010 that will further
assist in maintaining the accuracy of Combat Zone indicators. These include:
    •   Automating Combat Zone programming. The IRS has initiated actions to automate
        Combat Zone programming, effective October 1, 2009. Proposed actions include


8
 Tax Year is the period of time for which a tax return is filed.
9
 Combat Zone transcripts refer to a list of tax accounts with Combat Zone indicators where the Combat Zone entry
dates are more than 3 years old and have no Combat Zone exit date.
                                                                                                         Page 4
                             Combat Zone Indicators on Taxpayer Accounts
                                      Are Frequently Inaccurate



       automating the issuance of Request for Combat Zone Service Dates (Letter 2761C) when
       Combat Zone transcripts are generated. The Letter 2761C is a notice sent to the taxpayer
       who has an active indicator older than 3 years, and beginning in FY 2010 older than
       2 years. The computer-generated letter is mailed to the taxpayer to find out the dates of
       their Combat Zone service. The IRS anticipates the automation will reduce the volume
       of Combat Zone transcripts and thus require fewer resources.
   •   Modifying the generation of Combat Zone transcripts. Beginning in FY 2010, the IRS
       will generate transcripts monthly rather then annually and will begin issuing transcripts of
       accounts with unreversed Combat Zone entry dates 2 years and older instead of 3 years
       and older.

The Combat Zone Indicator Used by the Internal Revenue Service
Does Not Distinguish Between Military and Civilian Taxpayers
The IRS cannot differentiate between military and civilian taxpayers because it uses the same
Combat Zone indicator for both. Figure 1 provides a comparison of benefits to which military
members and civilians working in a combat zone are entitled.
       Figure 1: Comparison of Combat Zone Tax Relief Benefits Afforded to
                     Military Service Members and Civilians

                                                   MILITARY SERVICE MEMBER

       COMBAT ZONE BENEFITS                       Enlisted Member,                            CIVILIAN
                                                  Warrant Officer,
                                                   Commissioned           Commissioned
                                                  Warrant Officer           Officer

  Exclusion of military pay for service in                                      YES
                                                          YES                                     NO
  a Combat Zone                                                            (partial wages)

  Extension of filing deadlines for
                                                          YES                   YES               YES
  service in a Combat Zone

  Include nontaxable Combat Zone pay
  to qualify for Earned Income Tax                        YES                   YES               NO
  Credit

                                                                                                  NO
  Forgiveness of decedent’s tax liability
                                                          YES                   YES            (Non-Federal
  due to Combat Zone activity                                                                    Civilian
                                                                                                Employee)

Source: The IRS Armed Forces’ Tax Guide (Publication 3), Internal Revenue Manual Section 5.19.1.4.10, and the
IRS web site (IRS.gov).

                                                                                                      Page 5
                          Combat Zone Indicators on Taxpayer Accounts
                                   Are Frequently Inaccurate



The IRS has not established a process to distinguish between members of the military and
civilians serving in combat zones. As a result, civilians can receive Combat Zone tax relief
benefits to which they are not entitled.

Recommendation
Recommendation 1: The Commissioner, W&I Division, should develop a process to
distinguish military taxpayers from civilian taxpayers.
       Management’s Response: IRS management disagreed with this recommendation.
       The IRS already has a means for distinguishing between military and civilian taxpayers.
       When the IRS receives information from the DOD, Transaction Code 500 posts to the
       account with the number “8” or “9” in the 6th through 13th positions of the Document
       Locator Number of that transaction. If there is no “8” or “9,” the IRS knows the taxpayer
       self-identified or made contact with the IRS and is not currently serving in the U.S.
       Armed Forces.
       Management stated that the creation of an additional process to distinguish military
       taxpayers from civilian taxpayers would not assist the IRS in determining the benefits to
       which the taxpayer may be entitled. The IRS implemented new procedures in FY 2009
       for processing returns to ensure only taxpayers entitled to Combat Zone income
       exclusions receive that benefit. Wage and Tax Statements (Form W-2) are checked for a
       military payor when income is excluded and a math error notice is generated to disallow
       the exclusion if the taxpayer makes an inappropriate claim. Revising the IRS’ initial
       returns processing procedures to exclude inappropriate Combat Zone income exclusion
       claims minimizes the need for more costly and time consuming case analysis after the
       return has been processed.
       Office Audit Comment: IRS management indicated that they have the ability to
       distinguish between military and civilian taxpayers. We agree that the IRS can identify
       military individuals via the information received monthly from the DOD. However, as
       our report details, the IRS uses the same indicator for both military and civilian
       taxpayers. Once this indicator is set on the accounts of civilian taxpayers, it could allow
       the civilian taxpayers to inappropriately exclude income without action by the IRS
       because the IRS will not review accounts with unreported income if a Combat Zone
       indicator is present. We cannot comment at this time on management’s assertion that
       new procedures were implemented to ensure accuracy of income reporting by individuals
       in a combat zone because they were implemented subsequent to our review.




                                                                                           Page 6
                           Combat Zone Indicators on Taxpayer Accounts
                                    Are Frequently Inaccurate



Combat Zone Indicators Are Not Always Accurate for Married Military
Couples
The IRS cannot identify for married individuals filing a joint tax return which individual(s) is/are
in the military. As a result, the IRS cannot ensure the accuracy of tax benefits being provided or
that the Combat Zone indicator is properly reversed when necessary.

The Combat Zone indicator does not indicate which spouse is in the combat zone
on joint-filed tax returns
Military couples including the spouse not serving in a combat zone are entitled to tax relief
benefits. However, the income exclusion applies only to the individual serving in a combat zone.
Since the IRS is unable to identify which spouse is in a combat zone, it cannot ensure the
accuracy of tax benefits are provided.
      In Tax Year 2003, a military couple files their tax return with a filing status of “married
      filing jointly” with the wife listed on the name line of the tax return as the first taxpayer
      and the husband as the second taxpayer. In Tax Year 2004, the military couple also files
      “married filing jointly” but the wife is now listed on the name line of the tax return as the
                    second taxpayer and the husband as the first taxpayer. In this scenario,
  Scenario           only the husband served in a combat zone. The DOD supplies the IRS with
                     the Combat Zone entry/exit dates for the husband’s Combat Zone tour and
                     provides no Combat Zone information for his wife because she was not in a
      combat zone. The wife as a spouse is entitled to Combat Zone tax benefits; however, her
      income is taxable. To address the spouse’s Combat Zone tax benefits, the IRS enters
      DOD Combat Zone information not only on the husband’s tax account but also on the
      wife’s tax account. While the husband’s tax account and the wife’s tax account each
      have a Combat Zone indicator, the use of the same codes for their Combat Zone
      indicators prevents the IRS from determining whether the husband, wife, or both served
      in a combat zone.

Combat Zone indicators are not accurately reversed for married individuals filing
a joint tax return
Our judgmental sample of 50 taxpayers from the 26,846 taxpayers with military Combat Zone
service on the Cycle 43 Combat Zone Transcript Listing issued October 19, 2008, identified for
27 (54 percent) of the 50 taxpayers the Combat Zone indicator was not correctly reversed based
on notification from the DOD. These errors resulted from the IRS’ inability to accurately
identify the individual(s) for whom the Combat Zone indicator was originally assigned. Part of
the problem is due to whether taxpayers on a joint return are shown as the primary or secondary
taxpayer, which is solely based on who is listed first and second on the tax return. The following
scenario provides an example of the problem:

                                                                                             Page 7
                          Combat Zone Indicators on Taxpayer Accounts
                                   Are Frequently Inaccurate



      Married individuals jointly file their Tax Year 2003 tax return with the husband listed as
      the second taxpayer and the wife listed as the first taxpayer on the name line of the tax
      return. The husband is in the military and deployed to a combat zone. Although his wife
      is not in a combat zone, she is entitled to the Combat Zone tax benefits except for the
                     income exclusion. The DOD provides the IRS with his Combat Zone entry
  Scenario            date and the IRS posts that date to the husband’s and wife’s tax accounts to
                      activate their Combat Zone indicators. The couple then jointly files their
                     Tax Year 2004 tax return. However, for this filing the couple is in a
      different order with the wife now listed as the second taxpayer and the husband listed as
      the first taxpayer on the tax return. The DOD subsequently provides the IRS with an exit
      date of when the husband leaves the combat zone. However, because the couple was
      listed in a different order than when the indicator was established, the IRS is unable to
      reverse their Combat Zone indicators.
The IRS stated that programming of Combat Zone transactions for military married couples is
based on the order of the husband’s and wife’s names/SSNs on their tax return, not on the DOD
Combat Zone status of the spouse in the combat zone. In past conflicts, the IRS did not receive
Combat Zone data from the DOD for military members; rather, it relied exclusively on military
members to alert the IRS of their Combat Zone service by annotating “Combat Zone” on their
tax returns. However, this process did not work well because the IRS only knew that a military
member was in a combat zone and had no way of knowing when they exited the combat zone.
This weakness prompted the IRS to obtain Combat Zone entry/exit dates directly from the DOD
for military members. When military taxpayers jointly file a tax return and alternate the order of
the first taxpayer and second taxpayer on the tax return, this prevents the Combat Zone indicator
from being deactivated to reflect the spouse’s exit from the combat zone.

Recommendations
The Commissioner, W&I Division, should:
Recommendation 2: Improve the process for identifying joint filers serving in the military to
properly identify which individual(s) is/are in a combat zone to ensure appropriate enforcement
actions are taken.
       Management’s Response: IRS management agreed with this recommendation. The
       W&I Division is working with Modernization and Information Technology Services
       (MITS) organization to improve the existing process that identifies which individual(s) is
       in a combat zone, particularly if a taxpayer files jointly with his or her spouse. Once an
       agreeable solution is reached, the necessary Unified Work Request will be submitted to
       the MITS organization.




                                                                                           Page 8
                              Combat Zone Indicators on Taxpayer Accounts
                                       Are Frequently Inaccurate



Recommendation 3: Improve the process for ensuring that Combat Zone indicators are
reversed when an exit date is received from the DOD for those individuals who file a joint tax
return but do not maintain the same order of primary and secondary taxpayer.
         Management’s Response: The IRS agreed with this recommendation. The W&I
         Division is working with the MITS organization to ensure the accurate reversal of
         Combat Zone indicators when an exit date is received from the DOD for those
         individuals who file a joint tax return, regardless of whether they maintain the same order
         of primary and secondary taxpayer. Once an agreeable solution is reached, the necessary
         Unified Work Request will be submitted to the MITS organization.

Combat Zone Indicators for Taxpayers Serving in the Military Are
Inaccurate
Our review identified that Combat Zone indicators are not accurate for military members.
Inaccurate indicators result from processes not being established to ensure:
     •   Indicators are not updated to an active status based on taxpayers self-identifying that they
         are in a combat zone by an annotation on their tax returns.
     •   Unpostable conditions are accurately resolved resulting from the IRS being unable to post
         entry/exit dates provided by the DOD.
Inaccurate Combat Zone indicators can result in military taxpayers not receiving the benefits to
which they are entitled or continuing to receive special tax benefits to which they are no longer
entitled.

Indicators are incorrectly updated based on self-identification
Many Combat Zone indicators are inaccurate because the IRS is incorrectly updating Combat
Zone indicators to active status when a military member self-identifies on their tax return that
they served in a combat zone. Our analysis showed 339,027 had an active Combat Zone
indicator in Tax Year 2007 but were no longer in a combat zone. The IRS initially reversed the
Combat Zone indicator from an active status for the 339,027 taxpayers based on the exit date
received from the DOD indicating that these individuals were no longer in a combat zone.
However, the 339,027 taxpayers subsequently filed tax returns10 and annotated “Combat Zone”
on their tax returns. As a result of the taxpayer annotating “Combat Zone” on their tax return,
the IRS incorrectly reactivates the Combat Zone indicator to an active status even though the
taxpayer is no longer in a combat zone.



10
  These may include individuals who leave the military and then become employed as a contractor working in a
combat zone. However, the IRS does not have the data to make this determination.
                                                                                                        Page 9
                                  Combat Zone Indicators on Taxpayer Accounts
                                           Are Frequently Inaccurate



Individuals serving in the military are directed to annotate “Combat Zone” on their tax returns.
Specifically, in 2003, the IRS created a new section on its web site containing important
information to help ensure members of the U.S. Armed Forces serving in a combat zone receive
all of the tax benefits available to them. This section of the web site for the U.S. Armed Forces
included the following instructions for filing a return:
           When filing returns, mark “Combat Zone” at the top of the form along with
           the date of deployment.
Annotating the tax return is not necessary for individuals in the military because the DOD
provides information to the IRS regarding the entry and exit dates from a combat zone. In fact,
annotating the tax return is resulting in the IRS incorrectly reactivating the designation to an
active status. Figure 2 shows the number of taxpayer accounts for which the Combat Zone
indicator was incorrectly reactivated because the taxpayer annotated the return with “Combat
Zone” (the figure shows the number of taxpayer accounts by Processing Year,11 the total number
for the 6 years is 339,027).
      Figure 2: Number of Taxpayer Accounts in Which the Combat Zone Indicator
                  Was Incorrectly Reactivated (by Processing Year)



               2008                                                                                    115,553


               2007                                                                           99,637

               2006                                                                       93,931

               2005                        25,972

               2004         3,874

               2003       60

                      0         20,000       40,000       60,000       80,000       100,000        120,000

                                                Number of Taxpayers

         Source: TIGTA analysis of the self-identifying returns filed by 339,027 taxpayers.



11
     Processing Year is the calendar year in which the return was processed by the IRS.
                                                                                                             Page 10
                               Combat Zone Indicators on Taxpayer Accounts
                                        Are Frequently Inaccurate



In an attempt to ensure the accuracy of Combat Zone indicators, each year the IRS generates a
list of Combat Zone transcripts of those accounts with active Combat Zone indicators and an
entry date 3 years or older. Tax examiners then communicate with these individuals to confirm
whether they are still in an active combat zone. Our review of the list generated on
October 19, 2008, identified that 32,440 (33 percent) of the 99,432 accounts were added as a
result of the IRS reactivating the Combat Zone indicator based on the taxpayer filing a tax return
and annotating “Combat Zone.” The IRS expended $437,00012 to resolve these cases.13 If the
IRS does not initiate actions to ensure Combat Zone indicators are not reactivated, it could
expend an estimated $2.2 million over 5 years to resolve accounts that were added to the list
because of inaccurate updates based on self-identification.
Incorrect reactivation of Combat Zone indicators causes improper tax benefits
The 339,027 taxpayers14 with a Combat Zone indicator which was incorrectly reactivated
received tax benefits to which they were not entitled. For example:
     •   1,960 taxpayers had 2,360 tax modules that were identified by the Nonfiler Program15 as
         potentially not reporting their income. However, because the Combat Zone indicator had
         been incorrectly reactivated, these individuals were not contacted.
     •   505 taxpayers in Tax Year 2006 or prior did not file a tax return for Tax Year 2006.
         Further, 475 of the 505 nonfilers in Tax Year 2006 earned wages totaling $19,365,179
         that were not reported. We estimate that 288 of 475 nonfilers potentially owe a total of
         $1,100,702 in taxes16—15 of the taxpayers had taxable income of more than $100,000
         each.
Based on our analysis of the returns for Tax Year 2006, nearly all of the individuals who
self-identified by annotating their tax return were military taxpayers, as illustrated by Figure 3.




12
   Dollar amount has been rounded to the nearest thousand.
13
   Appendix IV shows the methodology for calculating the costs incurred for working the 32,440 transcripts.
14
   Appendix IV shows the methodology for identifying the 339,027 taxpayers with a potentially erroneous
reactivated Combat Zone indicator.
15
   The Nonfiler Program identifies taxpayers who have not filed a tax return by the return due date or the extended
due date.
16
   We used this formula to compute potential tax owed by the 288 nonfilers: (Taxpayer’s wages on Tax Year 2006
Form W-2) – (Tax Year 2006 Standard Deduction for Single Taxpayer) – (Tax Year 2006 Exemption for Taxpayer
Claiming Self) = Taxable Income. Using the Taxpayer’s Taxable Income, we calculated Tax Due using the 2006
Tax Table. (Tax Due) – (Federal Income Tax Withheld on Tax Year 2006 Form W-2) = Tax Owed.
                                                                                                           Page 11
                            Combat Zone Indicators on Taxpayer Accounts
                                     Are Frequently Inaccurate



       Figure 3: Type of Taxpayer Self-Identifying “Combat Zone” Service


                                        Tax Year 2006
                             Civilian
                              6,024
                               2%




                                                    Military
                                                    278,910
                                                      98%




         Source: TIGTA analysis of 284,934 taxpayers filing 2006 tax returns with “Combat Zone” annotated on
         them.

We recommend that the IRS discontinue providing the option of annotating tax returns with
“Combat Zone.” The DOD provides information on entry and exit dates from a combat zone to
the IRS on a monthly basis. In addition, it causes problems because military taxpayers file their
tax returns after they return from a combat zone. By the time a military taxpayer files their tax
return, the IRS has already updated the Combat Zone indicator based on information received
from the DOD. The IRS should continue to provide individuals with the option of
self-identifying by telephone or electronically.

Recommendations
The Commissioner, W&I Division, should:
Recommendation 4: Discontinue providing the option to taxpayers of self-identifying by
annotating a tax return with “Combat Zone” and continue to provide individuals with the option
of self-identifying by telephone or electronically.
       Management’s Response: IRS management partially agreed with this
       recommendation. The IRS allows taxpayers multiple options to self-identify as being in a
       combat zone to make sure it does not take inappropriate enforcement actions or
       inaccurately deny claimed tax benefits to which these taxpayers are entitled.


                                                                                                   Page 12
                                  Combat Zone Indicators on Taxpayer Accounts
                                           Are Frequently Inaccurate



           The IRS is considering several alternatives to the existing self-identification process.
           While it is important to ensure only taxpayers that are entitled to the Combat Zone
           provisions of the Tax Code are given those tax advantages, it is also important that the
           IRS not deny anyone those benefits without proper handling of their account. The IRS
           will discontinue allowing taxpayers to self-identify on the returns only after it is certain
           that other means for identification are adequate.
Recommendation 5: Take action to correct the 339,027 taxpayers with inaccurate Combat
Zone indicators that were incorrectly reactivated.
           Management’s Response: IRS management disagreed that all of the
           339,027 taxpayers were incorrectly reactivated. The IRS will address these cases through
           its transcript process. However, the IRS is developing other solutions that may allow it to
           resolve this issue in a more expeditious manner. These solutions include reducing the
           amount of time before the IRS generates a transcript, updating Internal Revenue Manual
           procedures for transcript processing, developing automation tools to process the
           transcripts more efficiently/expeditiously, and tightening Submission Processing function
           procedures to identify incorrect exclusion of income when the return is received and
           processed.
           Office Audit Comment: It is not clear why the IRS disagrees that all
           339,027 taxpayers were incorrectly reactivated as no information was provided to support
           its disagreement. In fact, the Commissioner, W&I Division, plans to work all of these
           cases through the transcript process.
Recommendation 6: Review the 475 nonfiler accounts to determine if notification or
compliance actions are needed.
           Management’s Response: IRS management agreed with this recommendation. The
           475 nonfiler accounts are a subset of the 339,027 accounts cited in Recommendation 5.
           Thus, to the extent possible, the IRS will work these cases through its transcript process
           but, as noted above, the IRS is developing other, more expeditious means of solving these
           cases.

Unpostable Conditions for Entry/Exit Dates Provided by the
Department of Defense Are Not Accurately Resolved
Our analysis of 5 months of DOD Combat Zone transactions for Calendar Year 200717 identified
that 1,720 (1 percent) of 185,685 military members’ SSNs included in these files did not match




17
     This was the most current information available at the time we conducted our testing.
                                                                                                 Page 13
                               Combat Zone Indicators on Taxpayer Accounts
                                        Are Frequently Inaccurate



an IRS tax account and, as a result, no indicator could be activated.18 In May 2009, the IRS
identified that 495 of 107,316 DOD Combat Zone transactions did not post for various reasons,
such as the taxpayer not filing a tax return. Although the IRS has the ability to identify these
unpostable records, the IRS has not established a process to resolve them. As a result, Combat
Zone indicators are not being placed on an individual’s account when they enter a combat zone
and/or are not being reversed when the individual exits a combat zone.
When posting DOD Combat Zone transactions to an individual’s tax account, the IRS drops
those transactions that it is not able to post (entry or exit date) to an individual’s tax account.
The IRS does not maintain a record of those transactions that are dropped and no actions are
initiated in an attempt to resolve the mismatch including notifying the DOD of the mismatch.
In addition, our analysis showed that 458 DOD Combat Zone entry/exit transactions after Tax
Year 2001 were posted to the accounts of individuals using invalid SSNs.19 For example, a
Combat Zone transaction for a taxpayer posted to a different taxpayer’s account because both
taxpayers used the same SSN when filing a tax return, creating a valid and an invalid account for
that SSN. The IRS performs limited validation testing of DOD Combat Zone data prior to
uploading the information to military taxpayer’s accounts, only verifying military members’
SSNs are nine-digit numbers. The IRS needs to revise its validation process to check the validity
of the SSNs by performing a name control/SSN check and running the DOD data against the
National Account Profile20 to ensure information is being posted correctly.

Recommendations
The Commissioner, W&I Division, should:
Recommendation 7: Develop a process to identify and resolve unpostable records when
entry and exit date information provided by the DOD is unable to be posted to an individual’s tax
account.
        Management’s Response: IRS management agreed with this recommendation and is
        working with the MITS organization and the Submission Processing function to develop
        a process to capture these dropped records and establish procedures to resolve why they
        could not post to the Master File.



18
   The TIGTA analysis was performed by matching Combat Zone entry dates from Calendar Year 2007 DOD
Combat Zone data against the IRS database of individuals’ tax transactions based upon their SSNs.
19
   An SSN on a tax return that does not pass validity checks on the IRS computer system is considered invalid.
20
   The National Account Profile is a compilation of selected taxpayer identifying information from various IRS
Master Files. There is also Social Security Administration data and cross reference data on the National Account
Profile, making it possible to verify taxpayers who have no primary Master File account. The Master File is the IRS
database that stores various types of taxpayer account information.
                                                                                                          Page 14
                              Combat Zone Indicators on Taxpayer Accounts
                                       Are Frequently Inaccurate



Recommendation 8: Take actions to resolve the 458 DOD Combat Zone transactions posted
to invalid SSNs and revise the DOD validation process to ensure accurate posting of entry and
exit date information.
        Management’s Response: IRS management agreed with this recommendation. The
        IRS is working with the Submission Processing function to take corrective actions to
        resolve the 458 DOD Combat Zone transactions that posted to invalid SSNs. The IRS is
        also working with the MITS organization and the Submission Processing function to
        examine the existing DOD validation process and make changes as needed.
The Accuracy of Information Is Not Verified From Individuals Who
Self-Identify That They Are Serving in a Combat Zone
The IRS requires no documentary evidence to support an individual’s claim of being in a combat
zone at the time they self-identify. The following examples show that the IRS does not verify
whether the individual is serving in a combat zone and is in fact entitled to special tax benefits.
Instructions for IRS employees processing a tax return with self-identification:

Take the following actions when a military operation is noted on the return:

If the taxpayer notes                 And the Tax Year is                    Then

“Combat Zone” or similar              2001 or later                          Edit return with special code
statement                                                                    for Combat Zone


Instructions for IRS employees processing self-identification by telephone or email:
 Employees are responsible for ensuring the transaction code with the appropriate entry
 date and closing code (if applicable) are input on an account identified as Combat Zone.
 It does not matter whether the notification is received by phone or email but each action
 taken, why it was taken and what additional actions are/were required to resolve the case
 must be documented on Desktop Integration.21
 If the taxpayer doesn’t know the entry date, use the date of the phone call or email.

Similar to the processing of tax returns with a Combat Zone annotation, the IRS instructions for
handling toll-free telephone calls and emails include no requirement to secure documentary
evidence of a taxpayer’s Combat Zone service. The IRS generally accepts a taxpayer’s assertion



21
  Desktop Integration provides multiple systems interfaces, using only one computer terminal, moving
organizations towards an integrated desktop. Functionality includes inventory management, next case delivery,
nationwide history, and followup.
                                                                                                        Page 15
                          Combat Zone Indicators on Taxpayer Accounts
                                   Are Frequently Inaccurate



of Combat Zone service as acceptable proof that the taxpayer is entitled to the Combat Zone
special tax treatment.

Establishing a secure fillable form to replace email could reduce taxpayer burden
We commend the IRS for offering an email option for taxpayers to self-identify that they are in a
combat zone. However, our review of the process identified that the process does not provide
one-stop service. In fact, the process requires a number of contacts between the IRS and the
taxpayer. The following scenario provides an example:
      A taxpayer submits an email to inform the IRS of his or her presence in a combat zone,
      and includes his or her stateside address in the email. However, the information in the
                    email is insufficient for the IRS to locate the taxpayer’s tax account;
  Scenario          therefore, it cannot update the tax account to show the Combat Zone
                    extension. As a result, the IRS has to contact the taxpayer to request that
      he or she submit another email with his or her date of birth and date of deployment to the
      combat zone. If the IRS still cannot locate the taxpayer with this additional information,
      the IRS informs the taxpayer to submit a fax with their SSN.
Our review showed that for 70 (19 percent) of 360 emails submitted in Calendar Year 2007, the
IRS was unable to locate the taxpayer’s account and had to request additional information from
the taxpayer. For privacy and security reasons, the IRS cannot answer taxpayers’ email inquiries
over the Internet if they require an SSN. When an SSN is needed, it has to be submitted via fax.
The majority of the Calendar Year 2007 emails were from taxpayers to notify the IRS of their
deployment to a combat zone.
The IRS could reduce taxpayer burden by creating a fillable form that could be accessed through
the IRS web site and submitted directly to the IRS with all the necessary information to enable
the activation of a Combat Zone indicator.

Recommendations
The Commissioner, W&I Division, should:
Recommendation 9: Develop a process to validate Combat Zone service at the time an
individual self-identifies.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS is considering several alternatives to the existing self-identification process.
       Obtaining additional validation information from the taxpayer, where needed, will be part
       of that process. While it is important to ensure only taxpayers that are entitled to the
       Combat Zone provisions of the Tax Code are given those tax advantages, it is also
       important that the IRS not impose unnecessary burden or deny anyone those benefits
       without proper handling of their account.

                                                                                         Page 16
                          Combat Zone Indicators on Taxpayer Accounts
                                   Are Frequently Inaccurate



Recommendation 10: Improve the process for individuals who self-identify their Combat
Zone service by email with the establishment of a secure fillable form with the required data
fields.
       Management’s Response: IRS management partially agreed with this
       recommendation. Since the IRS agreed to reconsider its validation process in response to
       Recommendation 9, establishing a secure fillable form for the taxpayer to complete on
       IRS.gov may not be necessary and raises numerous security concerns. In addition, the
       IRS is not sure the information the taxpayer would provide in this manner will be
       sufficient to validate their presence in a combat zone. Nevertheless, the IRS will work
       with the MITS organization and the Cybersecurity Security Engineering function staff to
       consider this option.




                                                                                        Page 17
                                Combat Zone Indicators on Taxpayer Accounts
                                         Are Frequently Inaccurate



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the IRS actions to ensure the accuracy of
Combat Zone indicators. To accomplish our objective, we:
I.       Evaluated whether the agreed-upon recommendations from the TIGTA April 2005
         review1 were implemented.
         A. Reviewed the Joint Audit Management Enterprise System2 to determine if and when
            planned corrective actions were implemented.
         B. Obtained documentation to support that the IRS corrected the programming for
            downloading entry and exit dates from the data received from the DOD.
         C. Determined whether quarterly reviews are performed by the W&I Division to verify
            DOD’s data are posting accurately to Combat Zone taxpayers’ accounts.
         D. Evaluated actions taken by the IRS since the TIGTA April 2005 review to improve
            the processing of taxpayers’ accounts with Combat Zone indicators.
II.      Determined whether the IRS correctly updates Combat Zone accounts using the data
         received from the DOD on military members serving in a combat zone.
         A. Obtained the DOD CDs received by the IRS for April, May, June, August, and
            January of Tax Year3 2007. We performed a match of the population of
            292,855 unique taxpayers on the DOD CDs received from Tax Year 2007 for April,
            May, June, August, and January against the Individual Master File4 (IMF) Entity
            Module5 for 2007 to determine whether the taxpayers had an account on the IMF and
            performed data checks of their Combat Zone entry/exit dates to verify validity of the
            data.
         B. Interviewed management and analysts from the MITS organization; W&I Division
            Compliance, Accounts Management, and Submission Processing functions; and a


1
  Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits, but Account Identification
and Maintenance Processes Need Improvement (Reference Number 2005-40-077, dated April 28, 2005).
2
  An audit tracking and management control system.
3
  Tax Year is the period of time for which a return is filed.
4
  The IRS database that maintains transactions or records of individual tax accounts.
5
  Entity Module is the portion of the Master File record which identifies the taxpayer. It contains the taxpayer name,
address, tax period, and other identifying information. The Master File is the IRS database that stores various types
of taxpayer account information.
                                                                                                            Page 18
                              Combat Zone Indicators on Taxpayer Accounts
                                       Are Frequently Inaccurate



            private corporation engineer responsible for receipt and posting of the DOD Combat
            Zone data to the IMF to determine whether there were any unpostables or dropped
            transactions from the DOD data. We also obtained the volume of dropped
            transactions for May 2009 and identified whether there are procedures to resolve
            unpostable or dropped transactions.
        C. Determined the volume of Combat Zone transactions that posted to invalid SSNs6 for
           all Combat Zone transactions that posted after Tax Year 2001 on a computer extract
           containing Combat Zone transactions on taxpayers’ Entity Modules with active
           Combat Zone indicators in Tax Years 2005, 2006, and 2007.
        D. Ascertained whether the IRS generates managerial reports listing the unpostables or
           dropped transactions from the DOD data and evaluated whether the MITS
           organization and the W&I Division track or work unpostable/dropped transactions.
           We also determined whether corrective actions have been taken to address such
           occurrences.
        E. Contacted responsible representatives in the DOD Defense Manpower Data Center7 to
           determine whether the IRS has contacted them to discuss the efficiency and
           effectiveness of the notification and resolution of the unpostable process.
III.    Determined whether the IRS correctly updates Combat Zone accounts for individuals that
        self-identify using email or telephone.
        A. Evaluated whether the IRS is updating taxpayers’ Combat Zone indicators in
           response to taxpayers who notify the IRS by telephone or email of their service in a
           combat zone.
        B. Selected a statistically valid sample of 360 Combat Zone emails from a population of
           5,491 emails from a Calendar Year 2007 retention file to confirm whether the IRS
           updated the Combat Zone indicators when notified of a taxpayer’s Combat Zone
           entry/exit, and to determine whether supporting documentation of service in a combat
           zone was secured prior to updating the Combat Zone indicators. Our sample size was
           determined based on a 95 percent confidence level, an expected error rate of
           50 percent, and precision of ± 5 percent. A statistical sample was taken because we
           wanted to determine the number of emails in the population for which the Combat
           Zone indicators were not updated.
        C. Interviewed W&I Division Accounts Management function staff to obtain the volume
           of calls pertaining to notification of Combat Zone service and to determine whether


6
 An SSN on a tax return that does not pass validity checks on the IRS computer system is considered invalid.
7
 The Defense Manpower Data Center collects, archives, and maintains accurate, readily available manpower and
personnel data, as well as financial databases for the DOD.
                                                                                                      Page 19
                               Combat Zone Indicators on Taxpayer Accounts
                                        Are Frequently Inaccurate



             supporting documentation of Combat Zone service is secured prior to updating the
             Combat Zone indicators.
IV.     Determined whether the IRS has a process to differentiate between military individuals
        and civilian individuals for the purpose that appropriate tax benefits are provided.
        A. Assessed how the IRS processes tax returns with the annotation “Combat Zone” to
           determine whether the IRS is updating the Combat Zone indicators on these
           taxpayers’ accounts, and determined whether supporting documentation of Combat
           Zone service is secured prior to updating the Combat Zone indicators.
            1. Interviewed management and analysts from the MITS organization; W&I Division
               Compliance, Accounts Management, and Submission Processing functions; and a
               private corporation engineer, and also reviewed Internal Revenue Manual Section
               5.19.1, Collecting Process, Liability Collection, Balance Due, to identify the
               procedures for processing self-identified Combat Zone tax returns and to ascertain
               how the IRS determines whether a self-identified Combat Zone tax return is
               attributable to a military member or U.S. civilian working for the
               U.S. Armed Forces in a combat zone.
            2. Obtained a computer extract8 with Transaction Code 5009 on taxpayers’ IMF
               Entity Modules with active Combat Zone indicators in Tax Years 2005, 2006, and
               2007, developed criteria for the systemic issue identified with self-identifying
               returns, and applied the criteria to the computer extract to determine the number of
               taxpayers that fit the criteria of the systemic issue. The IMF data were extracted
               from the IRS mainframes and a run-to-run balancing was used, which involves
               documenting the records read in and written out at each step of the file processing,
               to ensure all records were received and loaded. We validated the accuracy of the
               data on the computer extract by comparing a randomly selected sample of
               50 taxpayers on the computer extract to the IRS information residing on the
               Integrated Data Retrieval System.10
        B. Analyzed the taxpayers with an incorrect Combat Zone indicator due to a systemic
           issue with self-identifying returns to determine the number of taxpayers that did not
           file a tax return for Tax Year 2006 in Processing Year11 2007.




8
  The computer extract was obtained from the TIGTA Office of Audit Electronic Data Processing group.
9
  This transaction activates a taxpayer’s Combat Zone indicator when entering a combat zone and deactivates a
taxpayer’s Combat Zone indicator when exiting a combat zone.
10
   IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
11
   Processing Year is the calendar year in which the return was processed by the IRS.
                                                                                                         Page 20
                       Combat Zone Indicators on Taxpayer Accounts
                                Are Frequently Inaccurate



V.   Determined whether the list of Combat Zone transcripts is being generated annually as
     required.
     A. Ascertained whether the IRS generated the run of Combat Zone transcripts in
        Cycle 43 of Calendar Year 2008.
     B. Obtained access to Combat Zone transcripts generated in Cycle 43 for Calendar
        Year 2008 and assigned the most recent Transaction Code 500 from the computer
        extract to the transcripts assigned to W&I Division employees to determine whether
        research was performed and corrective actions implemented. We also selected a
        judgmental sample of 50 taxpayers from a population of 26,846 taxpayers with
        transcripts and military service to determine whether married filing joint or married
        filing separate affects the accuracy of a Combat Zone indicator. We judgmentally
        selected the 50 taxpayers because, due to time constraints, we wanted to focus on
        those transcripts where taxpayers had military service.
     C. Determined the volume of transcripts generated in Cycle 43 of 2008 because of the
        systemic issue with self-identifying returns and calculated whether the W&I Division
        expended unnecessary direct costs to work these transcripts.
     D. Ascertained whether reports were issued to W&I Division Compliance and Accounts
        Management functions for the Combat Zone transcripts, and whether any issues
        identified from the reports required resolution. We determined whether W&I
        Division management addressed any of these issues and whether plans exist to
        balance the workflow processing of the Combat Zone transcripts.




                                                                                       Page 21
                        Combat Zone Indicators on Taxpayer Accounts
                                 Are Frequently Inaccurate



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell Martin, Director
Edward Gorman, Audit Manager
Gwendolyn Gilboy, Lead Auditor
Steven Vandigriff, Senior Auditor
Jonathan Lloyd, Auditor
Robert Carpenter, Senior Information Technology Specialist




                                                                                    Page 22
                       Combat Zone Indicators on Taxpayer Accounts
                                Are Frequently Inaccurate



                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Chief Technology Officer OS:CTO
Associate Chief Technology Officer, Applications Development OS:CTO:AD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Technology Officer, Applications Development OS:CTO:AD
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PRA:PEI




                                                                               Page 23
                           Combat Zone Indicators on Taxpayer Accounts
                                    Are Frequently Inaccurate



                                                                                   Appendix IV

                                Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Potential; $2,183,935 in direct costs over 5 years from
    working Combat Zone transcripts generated due to the systemic condition identified with
    self-identifying returns (see page 9).

Methodology Used to Measure the Reported Benefit:
The DOD informs the IRS when a military taxpayer enters and exits a combat zone. Upon being
notified by the DOD of a military taxpayer’s entrance into a combat zone, the IRS activates the
Combat Zone indicator. When the DOD informs the IRS that a military taxpayer has exited a
combat zone, the IRS deactivates the Combat Zone indicator. A military taxpayer also has the
option of self-identifying their Combat Zone service to the IRS by annotating “Combat Zone” on
their filed return. If the return is filed after the IRS deactivates the Combat Zone indicator based
on DOD exit information, the IRS systemically reactivates the Combat Zone indicator. Thus, a
self-identifying return causes a military taxpayer’s account to appear as though the taxpayer is
eligible for Combat Zone tax benefits even though the taxpayer is no longer in a combat zone.
Our analysis showed 32,440 (33 percent) of 99,432 accounts from the October 19, 2008, list of
Combat Zone transcripts were generated due to the systemic issue described above. We
determined the IRS will expend $2,183,935 in direct costs working these transcripts; however,
these direct costs could instead be utilized for other programs if the IRS discontinued the
processing of self-identifying returns. The following shows our calculation of the direct cost
expenditure:
•   Hourly Direct Cost for Processing Transcripts
We calculated the hourly direct cost for processing Combat Zone transcripts using the following
data:
    o IRS “Cumulative Cost” for processing Combat Zone transcripts for FY 2009, as of
      May 2, 2009: $356,205.00
    o IRS “ Cumulative Actual Hours” to process Combat Zone transcripts for FY 2009, as of
      May 2, 2009: 15,559 hours
                                                                                            Page 24
                               Combat Zone Indicators on Taxpayer Accounts
                                        Are Frequently Inaccurate



        Hourly Direct Cost = $22.891
•   Hours to Process Transcripts
We calculated the number of hours required to process the 32,440 Combat Zone transcripts using
the following data:
    o Number of Combat Zone transcripts generated in October 2008 due to the systemic
      condition with self-identifying returns: 32,440 transcripts2
    o IRS “ Actual Rate” to process Combat Zone transcripts per hour for FY 2009, as of
      May 2, 2009: 1.7 transcripts per hour3
        Hours to Process 32,440 Transcripts = 19,082
•   Direct Cost for Processing Transcripts Generated Due to the Systemic Condition
We calculated the direct cost of processing Combat Zone transcripts generated due to the
systemic condition with self-identifying returns, as follows:
Hourly Direct Cost         x       Hours to Process 32,440 Transcripts           =     Direct Cost
        $22.89                                      19,082                             $436,786.98
•   Potential Direct Cost for 1 Year and Over 5 Years

                                                1 Year                               5 Years
Potential Direct Cost                        $436,786.98                        $2,183,934.90


Type and Value of Outcome Measure:
•   Revenue Protection – Potential; 339,027 taxpayers’ accounts with inaccurate Combat Zone
    indicators inappropriately receiving tax benefits (see page 9).

Methodology Used to Measure the Reported Benefit:
A taxpayer qualifies for the Combat Zone tax benefits reserved for military members only during
their period of service in a combat zone. The DOD routinely notifies the IRS of the date when
military taxpayers exit a combat zone. Upon notification, the IRS changes these taxpayers’
Combat Zone indicators to inactive to reflect their exit from a combat zone. Subsequently, these
military taxpayers self-identify their Combat Zone service when filing a tax return which

1
  Formula: Cumulative Cost divided by Cumulative Actual Hours = Hourly Direct Cost.
2
  Volume determined by the TIGTA analysis of the 2008 Combat Zone transcripts.
3
  IRS calculated this rate by dividing the “Cumulative Actual Production” by the “Cumulative Actual Hours” for
FY 2009, as of May 2, 2009.
                                                                                                        Page 25
                             Combat Zone Indicators on Taxpayer Accounts
                                      Are Frequently Inaccurate



systemically causes the military taxpayers’ Combat Zone indicators to be reactivated to active
status. The reactivation of these military taxpayers Combat Zone indicators makes it appear that
they are entitled to Combat Zone tax benefits even though they are no longer allowed such
benefits due to their departure from a combat zone. We identified taxpayers with this systemic
condition of inaccurate Combat Zone indicators using a computer extract containing
8,225,584 Combat Zone entry/exit transactions for military and civilian taxpayers that reside on
the Entity Modules for taxpayers with an active Combat Zone indicator in Tax Years 2005, 2006,
and 2007. The following steps were performed for our analysis:
      o    Identified the unique SSNs on the computer extract.
      o    Filtered out the military Combat Zone exit transactions on or after January 1, 2000,
           sorted by cycle date in descending order.
      o    Filtered out the nonmilitary Combat Zone entry transactions, the transactions not
           generated by the DOD notifications, sorted by cycle date in ascending order.
      o    Retained the Combat Zone records where the cycle date of the nonmilitary Combat Zone
           entry transaction was greater than or equal to the cycle date of the military Combat Zone
           exit transaction, sorted by cycle date in ascending order.
      o    Eliminated nonmilitary Combat Zone entry transactions with a blank date, and
           eliminated any military Combat Zone exit transaction with an exit date greater than the
           date of a nonmilitary Combat Zone entry transaction.
      o    Matched the Combat Zone transactions file to a filed tax return file to identify the
           Combat Zone transactions systemically generated by a self-identifying tax return.
      o    Determined the number of taxpayers’ accounts with an active Combat Zone indicator in
           Tax Year 2007.
Our analysis showed 339,027 taxpayers’ accounts with incorrect Combat Zone indicators due to
the systemic condition with self-identifying returns erroneously received the benefits allowed
under I.R.C. § 7508,4 which includes taxpayers in a combat zone not being subject to penalties or
interest on taxable income.

Type and Value of Outcome Measure:
•     Increased Revenue – Potential; $1,100,702 in taxes owed by 288 of 475 nonfilers with a
      potentially erroneously reactivated Combat Zone indicator in Tax Year 2006 or prior who did
      not file a tax return for Tax Year 2006 (see page 9).




4
    I.R.C. § 7508 (2008).
                                                                                            Page 26
                                Combat Zone Indicators on Taxpayer Accounts
                                         Are Frequently Inaccurate



Methodology Used to Measure the Reported Benefit:
We found taxpayers’ Combat Zone indicators continue to be potentially inaccurate. Our
analysis showed the Combat Zone indicators for 339,027 (40 percent) of approximately
845,000 taxpayers with an active Combat Zone indicator on their tax account for Tax Year 2007
were potentially inaccurate. We then determined 127,051 (37 percent) of 339,027 taxpayers’
Combat Zone indicators were reactivated in Tax Year 2006 or prior. Of the 127,051 taxpayers,
we ascertained that taxpayers erroneously received the following tax benefit:
     •    505 of 127,051 taxpayers with an erroneously reactivated Combat Zone indicator in Tax
          Year 2006 or prior did not file a tax return for Tax Year 2006. Further, 475 of
          505 nonfilers in Tax Year 2006 earned wages totaling $19,365,179 that were not reported.
          Our analysis showed that the 288 of 475 nonfilers owe $1,100,702 in taxes.
The following information illustrates the calculation we used to determine the amount of taxes
owed by 288 of 475 nonfilers, using the assumption each taxpayer’s filing status was single.

             Tax Year 2006 Form 10405                                                Calculation
Taxpayers’ Wages on Tax Year 2006 Forms W-26                                   $ 15,162,351.00
Tax Year 2006 Standard Deduction for Single                                          (1,483,200.00)
Taxpayer
Tax Year 2006 Exemption for Taxpayer Claiming Self                                    ( 944,680.00)
Taxable Income                                                                 $ 12,734,471.00


Tax per 2006 Tax Table                                                           $ 2,374,395.00
Federal Income Tax Withheld for Tax Year 2006                                    $ 1,273,693.00
Forms W-2
Amount of Tax Owed                                                               $ 1,100,702.00




5
    U.S. Individual Income Tax Return (Form 1040).
6
    Wage and Tax Statement (Form W-2) is issued annually to a taxpayer by the IRS.
                                                                                                      Page 27
         Combat Zone Indicators on Taxpayer Accounts
                  Are Frequently Inaccurate



                                                 Appendix V


Management’s Response to the Draft Report




                                                       Page 28
Combat Zone Indicators on Taxpayer Accounts
         Are Frequently Inaccurate




                                              Page 29
Combat Zone Indicators on Taxpayer Accounts
         Are Frequently Inaccurate




                                              Page 30
Combat Zone Indicators on Taxpayer Accounts
         Are Frequently Inaccurate




                                              Page 31
Combat Zone Indicators on Taxpayer Accounts
         Are Frequently Inaccurate




                                              Page 32
Combat Zone Indicators on Taxpayer Accounts
         Are Frequently Inaccurate




                                              Page 33
Combat Zone Indicators on Taxpayer Accounts
         Are Frequently Inaccurate




                                              Page 34
Combat Zone Indicators on Taxpayer Accounts
         Are Frequently Inaccurate




                                              Page 35
